                                                                             Office ofInspector General

                                                                             U.S. Department of Homeland Security
                                                                             Washington, DC 20528




                                                                             Homeland
                                                                             Security
                                                            AUG 24 2011

MEMORANDUM FOR: 	                      Tony Russell
                                       Regional Administrator, Region VI
                                       Federal Emergency Management Agency

FROM: 	                                Matt Jadacki /J.j;1i:) --'- .
                                       Assistant Insp:Jdr~
                                       Office of Emergency Management Oversight

SUBJECT:                               FEMA Public Assistance Grant Funds Awarde,d to
                                        Port ofNew Orleans, Louisiana
                                       FEMA Disaster Number 1603-DR-LA
                                       Public Assistance Identification Number 071-UC5WW-00
                                       Audit Report DD-11-19

We audited public assistance grant funds awarded to the Port of New Orleans, Louisiana
(PONO). Our audit objective was to determine whether PONO accounted for and expended
Federal Emergency Management Agency (FEMA) grant funds according to federal regulations
and FEMA guidelines.

PONO received an award of$70.75 million from the Louisiana Governor's Office of Homeland
Security and Emergency Preparedness (GOHSEP), a FEMA grantee, for damages resulting from
Hurricane Katrina, which occurred on August 29,2005. The award provided 100% funding for
104 large projects totaling $69.38 million and 246 small projects totaling $1.37 million. l Our
audit included a detailed cost review of 20 completed permanent work projects totaling $9.45
million, or 13% of the award. Because PONO was using a system approach to improved
projects, we also assessed the reasonableness of its plan to complete 14 improved projects at a
cost of $39.93 million in place of 41 approved projects totaling $40.22 million. The audit
covered the period August 29,2005 through November 8, 2010, the cutoff date of our audit
(see Exhibit A, Schedule of Audited Projects).

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based upon our audit objective. We believe


I   Federal regulations in effect at the time ofthe disaster set the large project threshold at $55,500.
that the evidence obtained provides a reasonable basis for our findings and conclusions based
upon our audit objective. We conducted this audit based upon the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We interviewed FEMA, GOHSEP, and PONO officials; reviewed 100% of claimed costs for the
20 projects audited; and performed other procedures considered necessary to accomplish our
objective. We did not assess the adequacy of PONO’s internal controls applicable to grant
activities because it was not necessary to accomplish our audit objective. However, we did gain
an understanding of PONO’s method of accounting for costs and its procurement policies and
procedures.


                                                        BACKGROUND

PONO is a local government subunit of the State of Louisiana. It encompasses 22 million square
feet of publicly owned cargo-handling and cruise facilities and has more than 6 million square
feet of covered storage area. It is the only deepwater port in the United States served by six
Class 1 railroads.2 It accommodates an average of 2,000 vessel calls each year. The
commodities that pass through PONO include coffee, copper, rubber, steel, forest products, and
containerized cargo. In addition to cargo, more than 700,000 passengers sail through PONO
each year, with three cruise lines departing from the port.




    Figure 1: Mississippi River Facilities. This map depicts the location of riverfront facilities, some so severely damaged by
    Hurricane Katrina they had to be demolished (Celeste, Orange, and Market Street sheds), and others that will be relocated
    from the Inner Harbor Navigation Canal to the river, such as the cold storage facility in the red shaded area at the far left of
    the map. Source: PONO.




2
  A Class 1 Railroad, as defined by Webster’s dictionary, is any railroad with gross revenues of at least $250 million
(in 1991), according to the U.S. Department of Transportation.


                                                                    2

PONO facilities lie
alongside the
Mississippi River in
New Orleans and
along the Inner
Harbor Navigation
Canal (IHNC, also
known as Industrial
Canal). The IHNC is
a 5.1-mile waterway
that connects Lake
Pontchartrain, via the
Mississippi River
Gulf Outlet (MRGO)
and the Intracoastal
Waterway, to the
Mississippi River.
The MRGO was a
76-mile-long
manmade channel
                        Figure 2: Industrial Canal Facilities as They Existed Before Katrina. These facilities are no
that provided deep-     longer accessible to deep-draft vessels because of the closing of the MRGO. Some of these
sea ships a shortcut to facilities have been sold, some are closed, and some will be relocated along the Mississippi
the Intracoastal        River. Source: PONO.
Waterway. During
Hurricane Katrina, the MRGO funneled the storm surge into New Orleans at as much as 8 feet
per second. On June 5, 2008, the Secretary of the Army recommended deauthorization of part of
the MRGO project by constructing a rock closure structure.




Figure 3: Jourdan Road Facilities on the IHNC as They                    Figure 4: Napoleon Avenue Container Terminal on the
Appeared Before Katrina. This cold storage facility has been             Mississippi River as It Appeared Before Katrina. This
repaired and is in use, but products must be trucked between the         61-acre site includes a 48-acre marshalling area. This site
warehouse on the IHNC and the ships on the river because                 appears in the yellow shaded area in figure 1.
deep-draft access is no longer available on the IHNC. The cold           Source: PONO.
storage facility is being relocated along the Mississippi River
and can be seen in the first red shaded area on the far left side
of figure 1. Source: PONO.



                                                                    3

Because properties on the IHNC are no longer accessible to deep-draft vessels, PONO officials
recognized the need to relocate most of their IHNC facilities to the Mississippi River. Public
Assistance Policy Digest, FEMA-321 (October 2001), states, “Applicants performing restoration
work on a damaged facility may use the opportunity to make additional improvements while still
restoring the facility to its pre-disaster design.” FEMA refers to projects where these
improvements occur as improved projects. A donor project is a permanent work project whose
facility (or facilities) contributes funds, and in some cases, scope of work, toward a proposed
eligible permanent alternate or improved project. Applicants may apply donor funds toward
repairs, enhancements, or new construction, or to purchase the contents and equipment that best
serve post-disaster needs.


                                     RESULTS OF AUDIT

PONO accounted for and expended FEMA grant funds according to federal regulations and
FEMA guidelines, and its plan for completing 14 improved projects appeared reasonable.
However, PONO had not completed the allocation of insurance proceeds to its projects and had
not used all approved funding in completing certain projects. As a result, FEMA should allocate
approximately $2.6 million of insurance proceeds to PONO’s projects and disallow those
amounts from the projects as ineligible, and deobligate $670,974 in approved project costs that
exceeded the actual amounts incurred and claimed. In addition, GOHSEP overpaid PONO
$1,353,205; however, we do not question these costs because FEMA funding was not involved.

Finding A: PONO’s Plan for Improved Projects

We reviewed PONO’s System Approach Funding Plan (Plan) to relocate most of its IHNC
facilities to the Mississippi River. The Plan entails completing 14 improved projects at a cost of
$39.93 million in place of 41 approved projects totaling $40.22 million (see Exhibit B, Schedule
of Improved Projects). The overall Plan costs less to fund the improved projects than to repair
the damaged facilities, and it appears reasonable considering that properties on the IHNC are no
longer accessible to deep-draft vessels. PONO repaired some of the properties along the IHNC,
such as a trucking container yard, security fencing, and clogged sewer lines, but opted to use
most of the approved funding from the damaged IHNC properties to relocate a cold storage
facility and to expand or improve other facilities on the riverfront.

A July 2007 memorandum from the Gulf Coast Recovery Office allowed FEMA to consider a
group of facilities that provides a common service to be part of an aggregated function or system.
In August 2010, PONO submitted its Plan to GOHSEP; GOHSEP and FEMA approved the Plan
in November 2010 and February 2011, respectively. PONO expected to complete the 14
improved projects in its Plan by June 30, 2016.




                                                4

Finding B: Unused Federal Funds

PONO claimed $2,068,712 under four projects.3 The amounts FEMA estimated and approved
exceeded the amounts claimed by $670,974. Therefore, FEMA should deobligate $670,974 and
put those federal funds to better use (see Exhibit A, Schedule of Audited Projects).

Finding C: Insurance Allocation

PONO received approximately $82.73 million in net insurance proceeds. As of February 15,
2011, PONO had allocated approximately $80.13 million to eligible insured projects, leaving
approximately $2.6 million not allocated to projects. At the time of our audit, PONO, not
FEMA, had been directing the amount of insurance proceeds applied and to which projects.
According to 44 CFR 206.253(a), eligible costs must be reduced by the actual amount of
insurance proceeds relating to the eligible costs. Therefore, FEMA should allocate
approximately $2.6 million of insurance proceeds to PONO’s projects to reduce those amounts
from the projects as ineligible.

Other Matters

GOHSEP overpaid PONO $1,353,205 on four projects. For three of the projects this occurred,
because GOHSEP paid PONO before FEMA reduced the projects to zero after applying actual
insurance proceeds. For the fourth project, FEMA deobligated the project amount because of
ineligibility after GOHSEP paid PONO. Because the overpayment did not reduce authorized
FEMA funding, we do not question these costs. However, GOHSEP should collect the
overpayment so it can fund other projects.


                                      RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region VI:

        Recommendation #1: Deobligate $670,974 ($670,974 federal share) of unused federal
        funds and put them to better use (finding B).

        Recommendation #2: Allocate approximately $2.6 million ($2.6 million federal share)
        of insurance proceeds to PONO’s projects and disallow those amounts from the projects
        as ineligible (finding C).




3
 We updated the amounts claimed on May 12, 2011 (beyond our November 2010 audit cutoff date) because PONO
had completed these four projects and submitted all claims as of this date.


                                                    5

            DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP


We discussed the results of our audit with PONO officials during our audit and included their
comments in this report, as appropriate. We also provided written summaries of our findings and
recommendations in advance to FEMA, GOHSEP, and PONO officials and discussed them at
exit conferences held with GOHSEP and PONO officials on June 29, 2011, and with FEMA
officials on July 7, 2011. FEMA, GOHSEP, and PONO officials concurred with our findings
and recommendations.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this report
will be posted to our website, with the exception of sensitive information identified by your
office. Significant contributors to this report were Tonda Hadley, Judy Martinez, Susan Stipe,
and Rodney Johnson.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Tonda Hadley at (214) 436-5200.


cc:	   Administrator, FEMA
       Executive Director (Acting), FEMA Louisiana Recovery Office
       Audit Liaison, FEMA Louisiana Recovery Office
       Audit Liaison, FEMA Region VI
       Audit Liaison, FEMA (Job Code G-11-005)
       Audit Liaison, DHS




                                               6

                                                          EXHIBIT A


                 Schedule of Audited Projects

                Port of New Orleans, Louisiana

              FEMA Disaster Number 1603-DR-LA


                                                  Funds Put to
Project Number    Project Amount      Category     Better Use
                                                  (Finding B)
      1725            $     115,081      C          $         0
      9295                        0      C                    0
     16345                1,619,584      C              646,964
     18096                  470,065      C                    0
     19157                  421,361      D                    0
       911                  461,700      E                2,079
      1641                   56,651      E                    0
      1833                  951,532      E                    0
      2029                1,678,048      E                    0
      2250                  866,630      E                    0
      2277                  468,378      E                    0
      5450                   75,147      E                    0
     15511                   95,000      E                    0
     15901                  142,636      E                1,225
     16586                   78,557      E                    0
     16591                  515,766      E               20,706
     17405                  274,562      E                    0
     17496                        0      E                    0
     19046                  587,584      E                    0
     18747                  568,925      F                    0
  SUBTOTAL             $9,447,207                   $ 670,974
Insurance to be
Allocated
(Finding C)                                           2,600,378
    TOTAL                                           $3,271,352




                                 7

                                                                                  EXHIBIT B
                            Schedule of Improved Projects

                            Port of New Orleans, Louisiana

                          FEMA Disaster Number 1603-DR-LA


                                       DONOR         DONOR        DONOR        PROJECT
       PROJECT NAME                   PROJECT       PROJECT       TOTALS       ESTIMATE
                                                    AMOUNT
Fireboat Crew Dredge Parts
Building                               18503          $307,674
Project Total                                         $307,674     $307,674      $320,000

Governor Nichols & Esplanade
Substructure                            3718          $326,889
                                        1799           135,300
Project Total                                         $462,189     $462,189      $460,000

Pile Driver Storage Building           18386          $150,113
                                       18387           151,751
Project Total                                         $301,864     $301,864      $300,000

Napoleon Stage C Marshalling
Yard                                    3329         $1,947,963
Project Total                                        $1,947,963   $1,947,963    $2,000,000

Port-wide Sprinkler Control
Valves                                 18917          $517,873
Project Total                                         $517,873     $517,873      $500,000

Modifications to Julia Street Wharf     1832         $2,285,139
                                        2389            759,023
                                       17805             54,684
                                       18580            674,438
                                       19184            159,432
                                       19185            144,931
Project Total                                        $4,077,647   $4,077,647    $4,100,000

New Orleans Cold Storage               18385         $3,219,490
                                       18505            276,550
                                       18686          1,155,607
                                       19008          1,499,288
                                       19012          2,080,125
                                       19084             35,927
                                       19087          1,253,755
Project Total                                        $9,520,742   $9,520,742    $9,500,000

Morrison Yard Renovation               17458         $1,624,023
                                       17462            116,896
                                       18504            216,537
                                       18507          2,796,093
                                       18566             52,869
                                       18859             93,149
Project Total                                        $4,899,567   $4,899,567    $5,000,000




                                               8

                                                                                EXHIBIT B
                     Schedule of Improved Projects (Continued)

                          Port of New Orleans, Louisiana

                       FEMA Disaster Number DR-1603-LA

      PROJECT NAME                DONOR         DONOR         DONOR         PROJECT
                                 PROJECT       PROJECT        TOTALS        ESTIMATE
                                               AMOUNT
Napoleon Crane Rail Extensions    19070          $2,847,247
Project Total                                    $2,847,247    $2,847,247    $2,500,000

Port Administration Building
Repairs                           18526           $918,974
Project Total                                     $918,974      $918,974     $1,000,000

Nashville B/Silocaf Paving        17396         $ 116,896
                                  18586          2,165,216
Project Total                                   $2,282,112     $2,282,112    $2,250,000

Dredge Discharge Lines             6106         $1,329,380
                                   6142          1,355,793
Project Total                                   $2,685,173     $2,685,173    $3,000,000

Erection Testing and Start-Up
Cranes                             6135         $3,158,374
Project Total                                   $3,158,374     $3,158,374    $3,000,000

Louisiana Paving                   1304          $ 860,920
                                  18437          1,368,641
                                  18438            753,849
                                  18478            810,340
                                  18502          1,524,184
                                  18506            161,976
                                  18658            777,311
                                  18686             37,616
Project Total                                   $6,294,837     $6,294,837    $6,000,000

TOTALS                                                        $40,222,236   $39,930,000




                                          9

